Highway Network Scheduling – Western Area                                                      TD-AR-03-013




September 23, 2003

PAUL E. VOGEL
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

SYLVESTER BLACK
VICE PRESIDENT, WESTERN AREA OPERATIONS

SUBJECT:       Audit Report – Highway Network Scheduling – Western Area (Report Number TD-AR-03-013)

                                                 Background
On July 5, 2002, the Office of Inspector General (OIG) announced an audit of highway network scheduling. The
announcement responded to a request from the vice president, Network Operations Management. This report is one
of a series of reports. It focuses on the Western Area (Project Number 02YG017TD006).




                                                      1
Highway Network Scheduling – Western Area                                                              TD-AR-03-013




                       Highway contractor leaving the Denver, Colorado,
                       Processing and Distribution Center June 16, 2003.


                                            Objective, Scope, and Methodology
The objective of our audit was to evaluate the effectiveness of scheduled highway contract routes, and to identify
opportunities for cost savings.

The vice president, Network Operations Management, provided a list of plant-to-plant highway contract routes he
wanted considered for elimination or consolidation. A total of 2,302 trips were operated under the 325 Western Area
contracts. In preparation for our work, we provided the Western Area transportation manager with a list of contracts
we intended to audit. During our work, we interviewed officials at headquarters and in the Western Area; reviewed
relevant Postal Service policies and procedures; visited two plants; interviewed managers and employees; observed
and photographed operations; analyzed data in the Postal Service “Transportation Information Management
Evaluation System”; evaluated mail volume and critical entry times for First-Class and Priority Mail, and analyzed all
2,302 trips. We did not evaluate the reliability of the data obtained from the Transportation Information Management
Evaluation System.

Work associated with the Western Area was conducted from April through September 2003 in accordance with
generally accepted government auditing standards, and included such tests of internal controls, as were considered
necessary under the circumstances. We discussed our conclusions and observations with appropriate management
officials, and included their comments, where appropriate.

                                                  Prior Audit Coverage
Our audit report, Highway Network Scheduling – Pacific Area (Report Number TD-AR-02-003, dated September 24,
2002), identified 158 highway contract trips we thought could be eliminated, and consequently result in savings to the
Pacific Area of about $4.5 million. Management agreed with 124 trip terminations, but subsequently made certain
substitutions they considered appropriate. Although local plant managers disagreed with 34 trips we identified,
management agreed to reassess the trips, retain or eliminate trips as appropriate, and notify the OIG of all canceled
Highway Network Scheduling – Western Area                                                             TD-AR-03-013



trips, as well as the resulting savings. We considered management’s actions responsive to our recommendations.
For other related prior audit coverage see Appendix A.

                                                       Audit Results

Unnecessary Highway Contract Trips

Our audit revealed the Postal Service could save about $2.7 million by terminating 70 unnecessary trips. The trips
could be terminated because trip mail volume was low, and mail could be consolidated on other trips without
negatively affecting service.

Savings could be attained by canceling unnecessary trips that are currently contracted to continue from 1 to 3 years.
The savings we identified included savings from nonrenewable trips, plus savings from trip cancellations net of
cancellation fees totaling approximately $147,000.

After we completed our analysis, we discussed the 70 trips with plant managers. The managers agreed 30 trips could
be canceled, but disagreed with our assessment of another 40 trips. The trip cancellation proposals are summarized
in the following table:


                                               TRIP CANCELLATION PROPOSALS

                  CANCELLATION                 NUMBER                IDENTIFIED
                    CATEGORY                   OF TRIPS   APPENDIX    SAVINGS

       Trips we identified during audit work
       with which plant managers agreed.          30         B       $ 2,185,842

       Trips we identified during audit work
       with which plant managers disagreed.       40         C          535,688

       Total                                      70                 $2,721,530
Highway Network Scheduling – Western Area                                                                  TD-AR-03-013



The plant managers disagreed with the 40 proposals for various reasons–generally that eliminating the trips would
reduce operational flexibility or affect service. We continue to believe the potential for trip cancellation exists without
jeopardizing service or operational flexibility and savings exists.

Recommendations

We recommend the vice president, Western Area Operations:

       1. Cancel the 30 trips, which plant managers agree are unnecessary.

       2. Reassess the 40 trips plant managers feel are necessary, cancel trips indicated by the reassessment as
          necessary, and document the reasons for retaining the other trips.

Management’s Comments

Management concurred with the intent of our finding and recommendations. Regarding the 70 trips we identified for
elimination, management stated they had already eliminated 10 trips and that other trips were pending final action.
They explained that most cancellations were as agreed during our audit, but they made certain substitutions they
considered appropriate. Regarding the 40 trips we identified for elimination in recommendation 2, but with which local
plant managers disagreed, management stated they would reassess the trips, and retain or eliminate the trips as
appropriate. Finally, management stated that at the completion of their effort, they would notify the OIG of all
cancelled trips, and of the resulting cost savings. Management’s comments, in their entirety, are included in Appendix
D of this report.

Evaluation of Management’s Comments

Management’s comments are responsive to the intent of our recommendations. We consider the actions taken and
planned sufficient to address the issues we identified.

The OIG considers recommendations 1 and 2 significant and, therefore, requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective action(s) are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG provides written confirmation that
the recommendations can be closed.
Highway Network Scheduling – Western Area                                                             TD-AR-03-013




We appreciate the cooperation and courtesies provided by your staff during the audit. If you have any questions or
need additional information, please contact Joe Oliva, director, Transportation and Delivery, at (703) 248-2100, or me
at (703) 248-2300.



Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations
Attachment

cc: Patrick R. Donahoe
    John A. Rapp
    Anthony M. Pajunas
    Susan M. Duchek
Highway Network Scheduling – Western Area                                                             TD-AR-03-013




                                     APPENDIX A. PRIOR AUDIT COVERAGE

Our audit report, Highway Network Scheduling – Northeast Area (Report Number TD-AR-03-002, dated November 25,
2002), identified 18 highway contract trips we thought could be eliminated, and consequently result in savings to the
Northeast Area of about $777,000. Management agreed with ten trip terminations, but subsequently made certain
substitutions they considered appropriate. Although local plant managers disagreed with eight trips we identified,
management agreed to reassess the trips, retain or eliminate trips as appropriate, and notify the OIG of all canceled
trips, as well as the resulting savings. We considered management’s actions responsive to our recommendations.

Our audit report, Highway Network Scheduling – Capital Metro Area (Report Number TD-AR-03-007, dated March 28,
2003), identified 34 highway contract trips we thought could be eliminated, and consequently result in savings to the
Capital Metro Area of about $1.1 million. Management agreed with 20 trip terminations, but subsequently made
certain substitutions they considered appropriate. Although local plant managers disagreed with 14 trips we identified,
management agreed to reassess the trips, retain, or eliminate trips as appropriate, and notify the OIG of all canceled
trips, as well as the resulting savings. We considered management’s actions responsive to our recommendations.

Our audit report, Highway Network Scheduling – New York Metro Area (Report Number TD-AR-03-008, dated March
31, 2003), identified 32 highway contract trips we thought could be eliminated, and consequently result in savings to
the New York Metro Area of about $470,000. Management agreed with 12 trip terminations and canceled all 12 trips.
Although local plant managers disagreed with 20 trips we identified, management agreed to reassess the trips, retain
or eliminate trips as appropriate, and notify the OIG of all canceled trips, as well as the resulting savings. We
considered management’s actions responsive to our recommendations.

Our audit report, Highway Network Scheduling – Southwest Area (Report Number
TD-AR-03-0010, dated July 11, 2003), identified 249 highway contract trips we thought could be eliminated, and
consequently result in savings to the Southwest Area of about $6 million. Management agreed with 148 trip
terminations, but indicated they may make certain substitutions they considered appropriate. Although local plant
managers disagreed with 101 trips we identified, management agreed to reassess the trips, retain or eliminate trips as
appropriate, and notify the OIG of all canceled trips, as well as the resulting savings. We considered management’s
actions responsive to our recommendations.
      Highway Network Scheduling – Western Area                                                                                    TD-AR-03-013



                               APPENDIX B. TRIPS IDENTIFIED DURING AUDIT WORK WITH
                                         WHICH PLANT MANAGERS AGREED
Effective Date of         Highway                                                                        Estimated                     Estimated
 Last Contract            Contract                                                                        Contract    Indemnity          Cost
    Change                 Route          Trip Number                    Origin/Destination               Savings       Fees1           Savings
                                                             Colorado Springs Processing and
                                                             Distribution Center to Pueblo Main Post
7/1/2002                    80810       7 and 8              Office and Return                           $   83,460    $ 27,820           $       55,640
                                                             Des Moines Bulk Mail Center to Lincoln
                                                             Processing and Distribution Center and
12/1/2001                   68390       1, 2 and 3, 4        Return                                       1,980,010           0               1,980,010
                                                             Mankato Processing and Distribution
                                                             Facility to St. Cloud Processing and
1/3/2001                    56044       3 and 4              Distribution Facility and Return                20,226        3,371                  16,855
                                                             Quad Cities Processing and Distribution
                                                             Facility to Rock Island Main Post Office
10/5/2002                  612CA        19, 20, 21, 22       and Return                                      21,172        7,057                  14,115
                                                             Salt Lake City Auxiliary Service Facility
8/12/2001                   84123       7 and 8              to Ben Lomand Station and Return                30,328           0                   30,328
                                                             Sioux Falls Processing and Distribution
                                                             Center to Sioux Falls Regional Airport
7/1/2002                   570CD        1 and 2              and Return                                      12,187        4,062                   8,125
                                                             Sioux Falls Processing and Distribution
                                                             Center to Sioux Falls Regional Airport
7/1/2002                   570CD        3-8                  and Return                                      51,923       17,308                  34,615
                                                             Sioux Falls Processing and Distribution
                                        21-24 and            Center to Sioux Falls Regional Airport
7/1/2002                   570CD        33-36                and Return                                      69,231      23,077                46,154
Total                                   30 Trips                                                         $2,268,537    $ 82,695           $ 2,185,842




      1
          Highway contract routes reflecting $0 indemnity fees expire in June 2003.
      Highway Network Scheduling – Western Area                                                                     TD-AR-03-013




                           APPENDIX C. TRIPS IDENTIFIED DURING AUDIT WORK WITH
                                   WHICH PLANT MANAGERS DISAGREED
 Effective Date of   Highway                                                                    Estimated                       Estimated
  Last Contract      Contract                                                                    Contract       Indemnity         Cost
     Change           Route         Trip Number                  Origin/Destination              Savings           Fees          Savings
                                                    Cedar Rapids Processing and Distribution
                                                    Center to Cedar Rapids Airport Mail
11/2/2002             524CD      1, 2 or 3, 4       Facility and Return                            $    5,972      $    498        $    5,474
                                                    Cedar Rapids Processing and Distribution
                                                    Center to Cedar Rapids Airport Mail
11/2/2002             524CD      5, 6 or 7, 8       Facility and Return                                 5,834           486             5,348
                                                    Cedar Rapids Processing and Distribution
                                                    Center to Cedar Rapids Airport Mail
11/2/2002             524CD      11, 12 or 13, 14   Facility and Return                                 7,024           585             6,439
                                 19, 20 or 21, 22   Cedar Rapids Processing and Distribution
                                                    Center to Cedar Rapids Airport Mail
11/2/2002             524CD                         Facility and Return                                 7,024           585             6,439
                                                    Denver Mail Processing Annex to Golden
10/5/2002              80020     9, 10 or 13, 14    Main Post Office and Return                        64,650       21,550             43,100
                                                    Denver Processing and Distribution
7/1/2000               80037     5 and 11           Center to Durango Service Center Facility           7,168           597             6,571
                                 873, 874 or        Denver Processing and Distribution
8/5/2000               80118     875, 876           Center to Valmont Station and Return               38,250          3,187           35,063
                                                    Cheyenne Processing and Distribution
1/27/2002              80122     44 and 64 or 66    Center to Denver Airport Mail Facility             42,334          3,528           38,806
                                                    Kansas City Airport Mail Facility to
10/5/2002              64019     1 and 2            Maryville Post Office and Return                103,637                 0      103,637
                                                    Rapid City Processing and Distribution
8/10/2002             577AD      1 and 2            Facility to Rapid City Airport and Return          10,542           879             9,663
                                                    Rapid City Processing and Distribution
8/10/2002             577AD      7 and 8            Facility to Rapid City Airport and Return           8,757           730             8,027
                                 9, 10 or           Rapid City Processing and Distribution
8/10/2002             577AD      11, 12             Facility to Rapid City Airport and Return           8,757           730             8,027
                                                    Wichita Processing and Distribution
                                                    Center to Wichita (Downtown Station) and
11/9/2002             670BA      429 and 430        Return                                         $ 6,015         $ 1,002         $    5,013
      Highway Network Scheduling – Western Area                                                                        TD-AR-03-013



                           APPENDIX C. TRIPS IDENTIFIED DURING AUDIT WORK WITH
                                   WHICH PLANT MANAGERS DISAGREED
 Effective Date of   Highway                                                                    Estimated                        Estimated
  Last Contract      Contract                                                                    Contract       Indemnity          Cost
     Change           Route        Trip Number               Origin/Destination                  Savings           Fees           Savings
                                 409, 410 or      Wichita Processing and Distribution
                                 411, 412         Center to Wichita Airport Mail Facility and
11/9/2002             670BA                       Return                                          $     5,515      $     919          $     4,596
                                                  Wichita Processing and Distribution
                                                  Center to Wichita Airport Mail Facility and
11/9/2002             670BA      413 and 414      Return                                                8,229           1,372               6,857
                                                  Wichita Processing and Distribution
                                                  Center to Wichita Airport Mail Facility and
11/9/2002             670BA      441 and 442      Return                                                5,349            891                4,458
                                                  Wichita Processing and Distribution
                                                  Center to Wichita Airport Mail Facility and
11/9/2002             670BA      445 and 446      Return                                                7,596           1,266               6,330
                                                  Wichita Processing and Distribution
                                                  Center to Wichita Airport Mail Facility and
11/9/2002             670BA      421 and 422      Return                                                6,306           1,051               5,255
                                                  Wichita Processing and Distribution
                                                  Center to Wichita (North Station) and
11/9/2002             670BA      323 and 324      Return                                               41,138           6,856              34,282
                                                  Kansas City Bulk Mail Center to Hays
9/7/2002               66391     803 and 804      Post Office and Return                              209,785          17,482             192,303
Total                            40 Trips
                                                                                                  $ 599,882        $ 64,194           $ 535,688
Highway Network Scheduling – Western Area            TD-AR-03-013



                 APPENDIX D. MANAGEMENT’S COMMENTS




                                            10
